<html>
<title> - LEGISLATIVE HEARING ON PRE-DISCHARGE CLAIMS PROGRAMS: ARE VA AND DOD EFFECTIVELY SERVING SEPARATING MILITARY PERSONNEL</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 		LEGISLATIVE HEARING ON PRE-DISCHARGE CLAIMS PROGRAMS: 
 		  ARE VA AND DOD EFFECTIVELY SERVING SEPARATING 
 		  MILITARY PERSONNEL

=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                      WEDNESDAY, DECEMBER 13, 2017

                               __________

                           Serial No. 115-42

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
                [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


          Available via the World Wide Web: http://govinfo.gov
          
                  U.S. GOVERNMENT PUBLISHING OFFICE
                
31-616                    WASHINGTON : 2019 




                     COMMITTEE ON VETERANS' AFFAIRS

                   DAVID P. ROE, Tennessee, Chairman

GUS M. BILIRAKIS, Florida, Vice-     TIM WALZ, Minnesota, Ranking 
    Chairman                             Member
MIKE COFFMAN, Colorado               MARK TAKANO, California
BRAD R. WENSTRUP, Ohio               JULIA BROWNLEY, California
AMATA COLEMAN RADEWAGEN, American    ANN M. KUSTER, New Hampshire
    Samoa                            BETO O'ROURKE, Texas
MIKE BOST, Illinois                  KATHLEEN RICE, New York
BRUCE POLIQUIN, Maine                J. LUIS CORREA, California
NEAL DUNN, Florida                   KILILI SABLAN, Northern Mariana 
JODEY ARRINGTON, Texas                   Islands
JOHN RUTHERFORD, Florida             ELIZABETH ESTY, Connecticut
CLAY HIGGINS, Louisiana              SCOTT PETERS, California
JACK BERGMAN, Michigan
JIM BANKS, Indiana
JENNIFFER GONZALEZ-COLON, Puerto 
    Rico
                       Jon Towers, Staff Director
                 Ray Kelley, Democratic Staff Director
                 

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                     MIKE BOST, Illinois, Chairman

MIKE COFFMAN, Colorado               ELIZABETH ESTY, Connecticut, 
AMATA RADEWAGEN, America Samoa           Ranking Member
JACK BERGMAN, Michigan               JULIA BROWNLEY, California
JIM BANKS, Indiana                   KILILI SABLAN, Northern Mariana 
                                         Islands

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
                            
                            
                            C O N T E N T S

                              ----------                              

                      Wednesday, December 13, 2017

                                                                   Page

Legislative Hearing On Pre-Discharge Claims Programs: Are VA And 
  DOD Effectively Serving Separating Military Personnel..........     1

                           OPENING STATEMENTS

Honorable Mike Bost, Chairman....................................     1
Honorable Elizabeth Esty, Ranking Member.........................     2

                               WITNESSES

Terry A. Adirim, M.D., MPH, Deputy Assistant Secretary of Defense 
  for Health Services Policy and Oversight, U.S. Department of 
  Defense........................................................     4
    Prepared Statement...........................................    22
Willie C. Clark, Sr., Deputy Under Secretary for Field 
  Operations, Veterans Benefits Administration, U. S. Department 
  of Veterans Affairs............................................     6
    Prepared Statement...........................................    23

        Accompanied by:

    Beth Murphy, Director, Compensation Service, Veterans 
        Benefits Administration, U. S. Department of Veterans 
        Affairs

    Patricia Murray, Chief Officer, Office of Disability and 
        Medical Assessment, Veterans Health Administration, U. S. 
        Department of Veterans Affairs
Gerardo Avila, Deputy Director, Medical Evaluation Board/ 
  Physical Evaluation Board/Department of Defense Correction 
  Board, National Veterans Affairs and Rehabilitation Division, 
  The American Legion............................................     7
    Prepared Statement...........................................    25
Ryan M. Gallucci, Director, National Veterans Service, Veterans 
  of Foreign Wars................................................     9
    Prepared Statement...........................................    27
    

 
 LEGISLATIVE HEARING ON PRE-DISCHARGE CLAIMS PROGRAMS: ARE VA AND DOD 
           EFFECTIVELY SERVING SEPARATING MILITARY PERSONNEL

                              ----------                              


                      Wednesday, December 13, 2017

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Disability Assistance
                                      and Memorial Affairs,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 10:00 a.m., in 
Room 334, Cannon House Office Building, Hon. Mike Bost 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Bost, Coffman, Banks, Esty, and 
Brownley.

       OPENING STATEMENT OF HONORABLE MIKE BOST, CHAIRMAN

    Mr. Bost. Good morning, and welcome. The oversight hearing 
of the Subcommittee on Disability Assistance and Memorial 
Affairs will now come to order.
    There are currently 1.3 million men and women serving in 
the United States armed forces. It is our duty to ensure that 
those who have defended our country receive their earned VA 
benefits as soon as possible. Today's hearing will review 
whether VA and DoD pre-discharge programs are effectively 
assisting ervice members who are leaving the military while 
coping with illness and injuries.
    In a hearing on pre-discharge programs this Subcommittee 
held in 2014, we heard from veteran service organizations who 
were concerned about the quality of disability examinations, 
the accuracy of the VA's ratings, and the lengthy decision 
process. At this hearing we will look at what VA and DoD have 
done to address those concerns since the hearing several years 
ago.
    Last week I had the privilege to meet with some of the 
wounded warriors at Walter Reed, we were going through one of 
the pre-discharge programs, the IDES program, more commonly, 
well, Integrated Disability Evaluation Systems, or IDES as it 
is commonly known. IDES is celebrating its tenth anniversary 
this year, and is the joint VA-DoD program used to determine if 
servicemembers dealing with injuries or illness are able to 
continue to serve.
    If the servicemember is found unfit for active duty, IDES 
is designed to ensure that the transition from warrior to 
veteran is seamless. Under IDES, servicemembers received one 
medical exam from VA which will serve two purposes. First, DoD 
will use the exam to assess if the servicemember is fit to 
return to duty. And, if not, whether the member will be 
medically retired.
    Second, if DoD finds that the servicemember is not fit for 
duty, the VA uses the exam results to issue a proposed 
disability rating. This process saves the servicemember from 
having to undergo two exams, one from DoD and another from the 
VA.
    I talked with the servicemembers about IDES last week, and 
was pleased to hear that the people I talked to had no 
complaints about their experience with the program at Walter 
Reed, but that does not mean that the program can't be improved 
on. We can always do better.
    I want to discuss concrete proposals that will make this 
process more effective to ensure that VA providers provides the 
men and women of the armed forces who go to IDES the support 
they need when they return to civilian life. We are also going 
to focus on two other pre-discharge program benefits 
deliveries.
    The delivery at discharge--the Benefit Delivery at 
Discharge, or the BDD, and Quick Start, which are also supposed 
to help servicemembers with disabilities access VA benefits 
soon after separating from the military. The BDD program 
servicemembers who were within 60 to 180 days of discharge 
could file a claim and receive a VA disability examination 
before leaving the military.
    The second program, Quick Start, allowed the servicemembers 
who were going to be discharged within 60 days file a claim and 
receive a disability exam from the VA as soon as they were 
discharged. Both of these programs allowed separate 
servicemembers to get a head start on their VA disability 
claim. If the system worked as intended, individuals would 
begin to receive disability benefits soon after leaving the 
military.
    However, VA has acknowledged that it had some challenges 
with timeliness when administering the BDD and the Quick Start 
programs. The VA recently told my staff that it was not meeting 
timeliness goals for Quick Start because it can be difficult to 
schedule a disability examination for servicemembers who are 
within 90 days of discharge. To try to resolve this issue, 
other VA and others, the VA eliminated the Quick Start program 
on October 31st, 2017, and made some changes to the BDD 
program.
    I am looking forward to hearing feedback from both the 
Department and VSO witnesses on three of these programs; IDES, 
BDD, and Quick Start. I am particularly interested in whether 
VA redesigning the BDD program is actually streamlining the 
disability claim process for separating military personnel. 
Lastly, I am hoping that we can find out ways that the VA and 
DoD can make all of the pre-discharge processes more efficient 
for our Nation's military members.
    Again, I want to thank everyone for being here today. And I 
would like to recognize, for opening comments, Ranking Member 
Esty.

 OPENING STATEMENT OF HONORABLE ELIZABETH ESTY, RANKING MEMBER

    Ms. Esty. Thank you very much, Mr. Chairman. And thank all 
of you for being with us here today. We are here today to look 
at two programs that hold the promise of providing every 
servicemember separating from military with his or her 
veteran's benefits before discharge. That is our goal.
    And we are not there yet, but the basis to achieve this 
goal exists in the IDES and BDD programs. We now have ten years 
of experience, and it is clear from what I have seen--and I 
want to thank those of you who did a lengthy briefing with me 
earlier this week in preparation for this--that the most 
important element that we have seen in making improvement is, 
in fact, better coordination between DoD and VA. And I want to 
commend you for that. That is not easy to do, but it is 
essential if we are going to continue to make progress.
    A lot of progress has been made. If you look at the 
timeliness numbers, for example. VA is showing a 102-day 
improvement in terms of scheduling these. Now that is 
extraordinary. So the time to completion has been cut almost in 
half. The goal has been do these exams within 100 days, you are 
now 19 days under that. That is to be commended. And I think it 
is important to look at the progress that has been made.
    But timeliness is one factor. Accuracy is another. 
Connection is another, particularly for high-risk groups. And I 
want to return to that. DoD tells us the result of the customer 
satisfaction surveys of servicemembers are taken twice during 
the IDES process. You are showing a satisfaction rate of 90 
percent, and that is with 40-plus percent completion rate, 
which is quite high for surveys. Again, we are pleased with 
that. But it is over time, and it is with everyone that we are 
looking for.
    So in order to set a course towards even greater 
improvement, today I want to do the following. Number one, I 
want to make sure that errors are not slipping through as a 
result of the recent changes in the way in which BDD claims are 
being tracked. So, accuracy.
    Two, I want to understand what steps are being taken to 
ensure that Guard and Reserve troops have the same opportunity 
to receive benefit determinations before they leave the Guard 
and Reserves. BDD may not be the right program for them. But 
due to the uniqueness of their service commitment, we need to 
make sure they are not short-changed.
    And I want to explore that a little bit more with the time 
requirements and how those do not really line up very well with 
the Guard, and we need to anticipate that and do this. I hear 
about this from Guard and Reservists in Connecticut. And they 
have frequent deployments, and this process is not really 
serving them well.
    Number three, I want to be assured that the military 
service coordinators and the physical exam board service 
officers are receiving the training that they need to help 
injured or ill servicemembers and their families through the 
process involved in IDES in a way that acknowledges and 
respects the service to the Nation that they have given, and 
particularly for terminally ill or those who have struggled 
with mental health issues when leaving the military. I think 
that respect factor and ensuring that it is not just about 
timeliness and checking the boxes, it needs to be high touch 
and respectful at all times.
    Fourth, I want to hear that VA intends to update and 
modernize how it is reaching out and communicating with troops 
pre-separation about what benefits are available to them. I 
also want to see a particular focus on that outreach to high-
risk groups that we know tend not to connect and suffer even 
more when they do not. Especially looking at women and looking 
at those who are most likely to suffer from PTSD, and all the 
attendant issues of homelessness, chronic illness, and worse.
    The other thing I want to do today is to ask our witnesses 
to tell us what we in Congress can do to help support DoD and 
VA to achieve greater success. We want an update on where you 
are but, obviously, a charge from you and enlightenment about 
what we need to do to do our jobs.
    Let us know what resources you need, what authority you may 
need to continue going forward to effectively, and 
appropriately, and respectfully serve those who served this 
great Nation. So, again, thank you for being here today, for 
working with us as we exercise our responsibility to provide 
oversight of these programs.
    I look forward to your testimony and the opportunity to ask 
questions. Thank you, and I yield back.
    Mr. Bost. Thank you, Ms. Esty. I ask all Members waive 
their opening remarks as per the Committee's custom. I want to 
welcome the witnesses who are joining us here this morning, and 
thank you for taking the time to be here.
    Our first witness is Dr. Terry Adirim, the Deputy Assistant 
Secretary of Defense of Health Services and Policy and 
Oversight for DoD. Joining us from VA is Mr. Willie Clark, who 
is the Department Under Secretary for the Field Operations of 
VBA. He is accompanied by Ms. Beth Murphy, the Director of 
Compensation Services for VBA, and by Ms. Patrick Murphy--
Murray, I am sorry, Patricia Murray, the Chief Officer of 
Office of Disabilities and Medical Assistance for VHA.
    Testifying on the behalf of the American Legion is Mr. 
Gerardo Avila--I will get that correct, yeah--who is the Deputy 
Director for the Medical Evaluation Board, Physical Evaluation 
Board, and Department of Defense Correction Board for the 
American Legion. Also joining us today is Mr. Ryan Gallucci, 
the Department Director of the National Veterans Services for 
VFW. We welcome to all of you.
    I want to remind the witnesses that your complete written 
statement will be entered into the hearing record.
    Dr. Adirim, you are now recognized for five minutes for the 
Department of Defense's testimony on opening statement.

                 STATEMENT OF DR. TERRY ADIRIM

    Dr. Adirim. Thank you. And I appreciate you pronouncing my 
name perfectly.
    Mr. Bost. I wish I did it for everybody.
    Dr. Adirim. Yeah. No. I am very impressed. Thank you. Good 
morning, everybody. Chairman Bost, Ranking Member Esty, and 
distinguished Members of the Subcommittee, thank you for the 
opportunity to testify today on the Integrated Disability 
Evaluation System, and we all call it IDES, so thank you for 
shortening that for us.
    Since 2007, DoD and VA have jointly administered the IDES 
to evaluate our Nation's wounded, ill, or injured 
servicemembers, and to ensure they receive the benefits they so 
rightly deserve. As a joint venture, DoD and VA implemented the 
IDES to provide servicemembers with quality, efficient, and 
transparent disability evaluations.
    As you know, the IDES is a streamlined process in which 
servicemembers receive a single examination, a single 
disability rating, and simultaneous DoD and VA processing to 
deliver benefits as early as possible following disability 
separation or retirement from military service.
    As a result, the IDES process accomplishes two primary DoD 
objectives. The first, it ensures the medial readiness of the 
U.S. armed forces. And, second, it provides potentially unfit 
servicemembers with expedient transition to benefits and VA 
care.
    The IDES framework continues to exceed expectations. In 
2007, prior to the IDES implementation, servicemembers waited 
an average of 540 days from referral for disability evaluation 
to receipt of VA benefits. Today, I am happy to report, active 
component cases average 258 days for both DoD and VA to 
complete their combined stages of the DES, a 52 percent 
improvement from the previous DES process.
    DoD is also outperforming our core, DoD-only process stage 
goals as required by DoD policy. In October 2017, DoD core 
stage performance for Active Component disability evaluation 
was 104 days against 105-day goal, while Reserve Component 
disability evaluation was 88 days against 125-day goal. 
Nonetheless, DoD and VA continuously seek to improve the 
timeliness and efficacy of the IDES.
    Since DoD's last appearance before this Subcommittee to 
discuss IDES, we have continued to improve processing across 
all the military departments. We have made a concerted effort 
to enhance case management, upgrade training standards, reduce 
overall IDES timeliness, and expand our quality control 
program.
    Within IDES, servicemembers have a single point of contact 
to help navigate the process known as a Physical Evaluation 
Board Liaison Officer, or PEBLO. The PEBLO provides 
servicemembers with all the critical information they need to 
make informed decisions throughout the process that is our 
direct touch.
    Since 2014, DoD has taken concrete steps to improve the 
IDES staff training. In collaboration with the military 
departments, we issued new training standards and performance 
objectives to ensure all IDES staff members are armed with the 
necessary tools to assist wounded, ill, or injured 
servicemembers.
    Further, our quality assurance program enables us to 
evaluate the performance, accuracy, and consistency of the 
IDES. Our expansion of the quality assurance program gives DoD 
the necessary information to monitor performance and correct 
inefficiencies.
    For fiscal year 2017, IDES scores reflect an accuracy rate 
of 94 percent, a consistency rate of 77 percent, and a duty 
performance rate of 80 percent, and we are still not satisfied. 
Results of these combined efforts can be seen in our most 
recent survey--as was already mentioned--of over 9,000 
servicemembers who indicated an overall 93 percent satisfaction 
rating with DoD and VA personnel implementing the IDES, and 
their overall IDES experience.
    So I am not surprised, Mr. Bost, that the Walter Reed 
experience demonstrated this.
    Again, I would like to thank you for the opportunity to 
testify on these important issues, and I look forward to 
answering your questions.

    [The prepared statement of Dr. Terry Adirim appears in the 
Appendix]

    Mr. Bost. Thank you, Doctor, for your testimony. Mr. Clark, 
you are recognized for five minutes.

                 STATEMENT OF WILLIE CLARK SR.

    Mr. Clark. Good morning, Chairman Bost--
    Mr. Bost. Good morning.
    Mr. Clark [continued]. --Ranking Member Esty, and Members 
of the Subcommittee. My name is Willie Clark, Deputy Under 
Secretary for Field Operations and the Veterans Benefits 
Administration. I am joined by Beth Murphy, Director of 
Compensation Service, and Patricia Murray, Chief Officer, 
Office of Disability and Medical Assessment with the VHA.
    Today I will discuss VBA's pre-discharge programs for 
servicemembers including IDES--sir, what you spoke to--and BDD. 
I will also discuss improvements in both of these programs; 
servicemembers satisfaction with IDES and training employees 
involved in IDES and BDD.
    On November 28, 2017, the Department of Veterans Affairs 
and DoD celebrated the tenth anniversary of IDES. In 2007, VA 
and DoD created an integrated disability evaluation process for 
servicemembers who are being medically retired or separated 
from service. This joint process was designed to provide a 
seamless transition of benefits and health care for medically 
separating servicemembers.
    In fiscal year 2017, more than 22,000 servicemembers were 
enrolled in IDES. As a result of our collaborative efforts, VBA 
and DoD have met the goals established for IDES. VBA's average 
processing time in September 2017 was 81 days, which is a 102-
day improvement from May of 2014; the last time we testified 
here on the IDES program.
    This 81 days is 10 days better than the VBA average of 100 
days. And VBA awarded benefits within an average of 26 days of 
discharge, exceeding the IDES timeliness goal of 30 days. As of 
June 2017, the semi-annual customer satisfaction survey showed 
that satisfaction was at 93 percent for IDES, and 89 percent 
for our military service coordinators. VA continues to 
collaborate with DoD on ways to improve the IDES execution 
while remaining focused on timeliness and accuracy.
    Since 1995, BDD and Quick Start programs have provided 
transitional assistance to separating servicemembers by 
engaging them in the claims process prior to discharge. VBA's 
goal is to ensure that each servicemember transitioning from 
service who wishes to file a claim for service-connected 
disability benefits receives timely assistance.
    In fiscal year 2017, VBA significantly improved BDD 
production and timeliness, completing over 32,000 claims in an 
average of 90 days compared to approximately 29,000 in 127 days 
in fiscal year 2016. VBA also completed over 25,000 Quick Start 
claims with an average of 109 days in fiscal year 2017. Pretty 
good accomplishments, but as you mentioned, we have to do 
better. We realize that, and we are embracing that.
    VBA is dedicated to ensuring that veterans receive the 
benefits they earned as quickly and accurately as possible. To 
this end, VBA has redesigned the pre-discharge program to 
enable servicemembers to receive disability benefit decisions, 
in most cases the day after their discharge.
    The redesigned program went into effect October the 1st of 
2017. Pre-discharge claims are now distributed through the 
National Work Queue, sending these claims to all the VA offices 
rather than just a few. Modifications to the existing BDD 
program include changing the filing deadline from 60 to 90 
days, enabling VBA to complete all medical examinations prior 
to the servicemembers' discharge from active duty.
    So one of the reasons for redesigning the program was to 
make sure that we had enough time to complete all of the exams 
and get them completed along with the servicemembers active 
duty and TDY requirements, and the like. So that is one of the 
main reasons we changed the program.
    As part of the redesign, VBA discontinued the Quick Start 
program, instead utilizing the new decision ready claims 
process, fully developed claim process, or traditional claims 
as appropriate. We continue to work in concert with our VSO 
partners who regularly collaborate with our MSCs on various 
military basis in order to facilitate servicemembers' initial 
claims submission.
    VBA's pre-discharge program provide all transitioning 
servicemembers the opportunity to initiate a claim for 
disability compensation benefits. VBA provides substantial 
training for all employees involved in the processing of 
claims, including pre-discharge claims.
    Ongoing technical training is required each year, and 
training is regularly updated. VBA conducted training on the 
redesigned BDD program in September of 2017, for MSCs in 
October 2017 for claims processes. VBA plans to conduct a 
comprehensive MSC training event in fiscal year 2018. VBA 
remains committed to supporting our Nation's servicemembers 
through improvements in the pre-discharge program.
    Mr. Chairman, this concludes my statement. We would be 
pleased to respond to questions you, Ranking Member Esty, or 
other Members of the Subcommittee may have.

    [The prepared statement of Mr. Willie Clark appears in the 
Appendix]

    Mr. Bost. Thank you, Mr. Clark. I guess I should have the 
mike on. Thank you. Mr. Avila, you are recognized for five 
minutes.

                   STATEMENT OF GERADO AVILA

    Mr. Avila. Chairman Bost, Ranking Member Esty, and 
distinguished Members of the Subcommittee on Disability 
Assistance and Memorial Affairs, on behalf of the 2 million 
members of the American Legion and National Commander Denise H. 
Rohan, thank you for the opportunity to testify regarding the 
American Legion's positions on the Integrated Disability 
Evaluation System and VA's pre-discharge program for separating 
servicemembers.
    The goal of IDES since its inception ten years ago has been 
to streamline the medical board process and create a seamless 
transition for wounded, ill, and injured servicemembers from 
DoD to VA. The American Legion has testified in the past 
concerning issues with timeliness, lack of information for 
those enrolled, and gaps in medical and compensation benefits 
after separating.
    Despite these concerns, we believe that the current IDES 
system is an improvement over its predecessor. The issues 
highlighted in our previous testimony have shown to improve. 
Despite this, we have the following concerns.
    DoD's practice of rating and, in many instances, 
recommending a reduction of disability rating decisions for 
individuals placed on the Temporary Disability Retirement List, 
also referred to as TDRL. A servicemember found unfit with a 
condition deemed not stable to assign the permanent disability 
rating will end up on TDRL.
    Once an individual transitions out of military service, 
they will be required to undergo periodic examinations by DoD 
to determine if the condition has stabilized and able to assign 
a permanent disability rating. In many instances these 
examinations are done at a DoD medical facility or by a DoD 
contractor. For instance, I have recently been contacted by a 
Navy veteran in this predicament.
    In 2013 the individual was given a rating for 60 percent 
for and unfit condition and placed on TDRL. After this latest 
reexamination in October of this year, the Navy considered the 
condition stable and is proposing a new rating of 20 percent. 
If nothing changes, this individual will be separated with 
severance despite still being rated at 60 percent for the same 
condition by VA.
    One of the goals of IDES was to have a single rating 
decision used by both VA and DoD. In an effort to keep the 
integrity and spirit of the IDES process, the American Legion 
believes that DoD should communicate with VA when recommending 
new ratings for individuals placed on TDRL. We recommend that 
if VA has a current rating for the condition, DoD should apply 
that same rating.
    American Legion service officers continue to encounter lack 
of resources for members of the National Guard and Reserves, 
specifically with Line of Duty, or LOD, investigations. An LOD 
is crucial to establish that a disability was caused due to 
military service. Without needed documentation, many 
servicemembers face a possibility of being separated with no 
benefits.
    With the hectic nature of military duty, it is not always 
possible to capture the facts when an injury occurs. The 
failure to capture and record crucial details has shown to be 
harmful for members of the National Guard and Reserve when 
undergoing the IDES process.
    With regards to the pre-discharge program for transitioning 
servicemembers, the American Legion continues to maintain 
service officers at the regional office in Winston-Salem, North 
Carolina, and Salt Lake City, Utah. A service officer assists 
transitioning servicemembers with 500 pre-discharge claims 
quarterly.
    Recently, the Veterans Benefit Administration introduced 
the new changes with the launch of the pre-discharge redesigned 
program. Major changes include the elimination of the Quick 
Start program and adjusting the filing day for pre-discharge 
claims between 180 and 90 days before separation.
    The Salt Lake City regional office was selected as the 
pilot site for the program. The early feedback from a 
representative there has been positive. A representative states 
that he has seen more pre-discharge claims being completed 
prior to the date of separation. This was not the case under 
the previous program. This new expedited method is beneficial 
to the veterans as they will receive their compensation 
immediately upon separating.
    The American Legion has concerns with the elimination of 
the Quick Start program due to the loss of the in-service 
diagnosis. Without this diagnosis, servicemembers are at 
greater risk at being denied, or at least delayed, in being 
considered service-connected.
    The American Legion continues their commitment to 
transitioning the servicemembers by maintaining a dedicated 
staff to assist during this crucial phase. We feel that these 
challenges can be improved with the integration of stakeholders 
at all levels and improve channels of communication, we owe it 
to the men and women who have volunteered for service to the 
Nation.
    Thank you, again, Chairman Bost, Ranking Member Esty, and 
distinguished Members of the Subcommittee. We appreciate the 
opportunity to present the American Legion's views, and look 
forward to answering any question that you and/or the 
Subcommittee may have.

    [The prepared statement of Mr. Gerardo Avila appears in the 
Appendix]

    Mr. Bost. Thank you, Mr. Avila. And, Mr. Gallucci, you are 
recognized for five minutes.

                 STATEMENT OF RYAN M. GALLUCCI

    Mr. Gallucci. Thank you. Chairman Bost, Ranking Member 
Esty, and Members of the Subcommittee, on behalf of the VFW, 
thank you for the opportunity to testify on VA and DoD's pre-
discharge claims programs.
    To the VFW, there is no more critical point than when a 
servicemember leaves the military and seeks to access their 
benefits. Filing an initial claim is just the beginning of what 
the VFW considers a lifetime of advocacy that resulted in 
nearly $7.7 billion in benefits delivered to all VFW-
represented veterans in 2017.
    We serve 24 military installations through our pre-
discharge program, and I want to thank both VA and DoD for 
allowing our highly-trained and professional advocates to 
assist in this transition. By working together, we ensure 
timely delivery of benefits for veterans at a pivotal point, 
and we set up veterans for positive interactions with VA moving 
forward.
    As transition programs evolve, we seek to make changes to 
improve the experience. Many times they yield positive results 
such as the military life cycle model, IDES, or the acceptance 
of pre-discharge claims, but sometimes changes have unintended 
consequences. This is where it is the VFW's responsibility to 
inform the agencies and this Committee of our concerns.
    Recently, VA made two significant changes that concern the 
VFW. First, VA shifted its timelines for BDD, only allowing 
servicemembers to submit claims from 180 to 90 days prior to 
discharge. Second, VA eliminated Quick Start, meaning 
servicemembers with 89 days or fewer left on active duty no 
longer have an option tailored to their needs.
    On its own, the shift to 90 days makes sense. VA can 
complete exams and propose decisions in time for separation. 
However, coupled with DoD's VOW Act requirements to deliver 
transition training and the elimination of Quick Start, the VFW 
believes this only makes it more difficult for transitioning 
servicemembers to access their benefits at separation, and more 
difficult to evaluate whether VA is effectively serving this 
population.
    GAO recently reported that DoD still struggles to meet the 
90-day requirement to commence transition. This is problematic 
for lower-ranking servicemembers who do not control their 
schedules and for those who must remain operational as long as 
possible.
    VFW data shows that nearly half of our clients were Quick 
Start prior to October 1. This is not a knock on DoD. We know 
military mission requirements come first and believe the VOW 
Act standard is reasonable. This is where VA needs to be 
flexible and cutting off BDD at 90 days does not help. If 
servicemembers have not been briefed yet on how to access their 
benefits, how can we expect them to file their claims?
    In the past, the Quick Start EP code allowed both the VFW 
and VA to track pre-discharge work and ensure the best possible 
outcome for the veteran. VA argues that eliminating the code is 
not a big deal, and that BDD excluded claims can be worked in 
regular order once the servicemember is discharged. However, 
this unique population deserves unique attention.
    It troubles us that VA is telling servicemembers they will 
no longer work up to 50 percent of pre-discharge claims until 
they officially leave the military. Additionally, by losing the 
EP code, we lose optics on this population at a critical point.
    Pre-discharge claims are treated differently when we review 
them, and we can find errors in up to 20 percent of them. If we 
cannot identify problems early, we are not setting the 
servicemember up for post-military success.
    To make matters worse, when VA receives a claim with fewer 
than 90 days, the servicemember now receives a letter that 
implies that they did something wrong and that VA did not 
accept their claim. Since this change went into effect, all of 
our pre-discharge reps on military installations have heard 
from clients who received this letter and believe that 
something went wrong.
    Many have confidence that we can resolve the issues, but 
for those who believe that the VFW did something wrong, we have 
lost our ability to advocate. At best, these letters are 
unnecessary. At worst, they are tone deaf and viewed as 
irresponsible.
    The solutions are simple. First, stop the disqualification 
letters. Second, reinstate an EP code for pre-discharge claims 
filed with fewer than 90 days. And, third, address the 
ambiguity and code regarding VA's authority to accept these 
claims. In Title 10 and Title 38, nothing explicitly directs VA 
to accept them. Instead, the authority is inferred through the 
statutes of authorizing TAP and VA compensation generally. We 
should clarify this.
    Finally, the VFW worries that these changes are the latest 
in a series of changes that obfuscate VA's pending workload , 
but not all pending work is bad for the veteran. While VA does 
not get a pass on drawing out certain processes, some pending 
work is legitimate.
    If we set reasonable expectations and explain the process, 
veterans will have positive experiences. But this also means we 
can't seek out headlines every time VA reports that something 
took more than 125 days. It is time to have a reasonable 
discussion about workload and what it really means to the 
veteran's experience.
    The military to civilian transition can be unknown and 
unpredictable. All of us in the room have dedicated substantial 
time and resources to make sure we get it right. The VFW values 
the role that we play alongside VA and DoD, and we are always 
looking for ways to improve. Our goal is to work together to 
ensure that our transitioning servicemembers have access to the 
benefits they have earned.
    Mr. Chairman, this concludes my testimony, and I am happy 
to answer any questions you or the Subcommittee may have. Thank 
you.

    [The prepared statement of Ryan M. Gallucci appears in the 
Appendix]

    Mr. Bost. Thank you, Mr. Gallucci. Thank you. We are going 
to go on now with questioning. I will recognize myself for five 
minutes.
    Mr. Avila, you stated that the agreement and the spirit of 
IDES is so DoD stays out of the rating business and leaves part 
of the process--that part of the process to the VA. Can you 
explain why the American Legion recommends that the VA rather 
than DoD conduct the needed periodic exams, and assigns any--
just a minute, let me get this right--and then assign any 
revised rating for veterans who have already been placed on 
TDRL?
    Mr. Avila. The American Legion--sorry. The American Legion 
does not feel that DoD is doing this on purpose or is doing it 
to low-ball the military member when giving them a rating. And 
we understand that ratings can change. Maybe they were given 60 
percent, in the sample that I used, and it's now maybe a lower, 
or maybe even a higher rating if the condition has gotten 
worse.
    But I think if we are trying to get it--if the goal is to 
get an accurate reading of what the current condition is today, 
I think the conversation needs to happen between DoD and VA. 
Specifically, if the member is now receiving the health care 
through the VA, I think VA can paint a complete picture to DoD 
by saying this is the current condition, this is his latest 
appointment, this is the current medication, or what has been 
the action plan.
    And I think once the VA has that--I mean, once DoD has a 
complete picture, then they can make perhaps a better decision 
than just bringing the member in and doing a one-time 
compensation and pension examination, for lack of a better 
word, and then basing a rating off that one decision. Going 
forward, like I mentioned in my testimony, let's use one 
rating.
    If we start changing ratings and we have different ratings 
between DoD, then we are going back to the old system, and that 
was kind of the change of IDES that we would have one rating 
decision and the only rating decision would be used by both DoD 
and VA. I do not think we want to head back down that road.
    Mr. Bost. Mr. Clark, why doesn't the VA conduct the follow 
up exams and ratings when a veteran is placed on TDRL?
    Mr. Clark. Chairman Bost, we would have to work with DoD to 
change the process. But as it currently stands, then that is a 
DoD responsibility for the temporary, and even permanent due to 
retirement list. But I am in agreement, and certainly we would 
have to work with our DoD partners that VA can take that 
responsibility on and provide this one rating.
    But as Mr. Avila just mentioned, as it presently stands, 
that is a DoD responsibility. But we are certainly open to 
making that happen, and I feel that we can make that happen. 
But we will have to speak to that. And Dr. Adirim--
    Mr. Bost. Dr. Adirim, does DoD agree with that?
    Dr. Adirim. Whenever there is a--in general, when there is 
a VA rating, and we have access to that, and we have found 
about, at least Army, about 70 percent of the time has access 
to that rating, we do use that exam. But we are happy to work 
with our VA colleagues to see where we can make improvements.
    Mr. Bost. Thank you. Ms. Murphy, I am going to ask some 
real quick things here. Quick Start was eliminated, and then 
BDD was changed around and tried to revamp. What were the 
reasons for the changes--
    Ms. Murphy. Certainly.
    Mr. Bost [continued]. --and getting rid of quick Start?
    Ms. Murphy. Good morning. Thank you. So we are always 
looking to improve, and streamline, and modernize in our 
processes with DoD, within VA, to best help our transitioning 
servicemembers and our veterans. I heard some of the comments, 
and certainly your concerns are our concerns as well for our 
servicemembers and our veterans about giving them the head 
start on their disability claim before they leave service for 
tailoring the process to them. And I think we have maintained 
that in our new redesign of the pre-discharge program.
    In BDD, now instead of 60 days prior to dis-charge, we have 
moved that back 90 to 120 days. I think we are doing a better 
job through our TAP program to get the word out to 
transitioning servicemembers about what is available to them 
through VA. And we are getting them educated, if you will.
    So giving us a little bit more time prior to discharge to 
get all the records together, to get the exams done, it is--we 
see it as better service to them in that time. We did not want 
to leave a gap, in fact, for some time we considered just 
completely eliminating Quick Start and not replacing it with 
anything, and just saying we will meet you on the other side of 
discharge and we will work with your claim there.
    We had some feedback from our VSO partners. They were very 
adamant about working with the servicemember while they were 
still on active duty. So we went back to the table, we thought 
about it, and we decided we would go ahead and open up some of 
our other options--traditional claim process, fully developed 
claim process, and our brand new decision ready claim process--
that transitioning members can have that available now tailored 
to them, and they get to be in the driver's seat.
    They decide when it is best for them to get the exam, they 
work with a service officer if that is helpful to them. Quick 
Start was not quick, and with decision ready claims, we are 
seeing an early result of about eight days after--
    Mr. Bost. Okay. I have one quick question, my time is about 
out, too. But this is for Ms. Murray. Was VA having difficult--
why was VA having difficulty scheduling and completing the 
medical exams before? What are some reasons that were in there?
    Ms. Murray. Can you repeat the question, please?
    Mr. Bost. Yeah. Why were we having trouble scheduling these 
exams? You know, there was a problem with scheduling, correct? 
What were some of the reasons that the scheduling problems were 
occurring?
    Ms. Murray. I think in terms of scheduling in VHA, we 
initially had a contract that we were using for surge capacity. 
And so we had examiners that we could tap into under contract. 
But then the contract was removed from VHA, and so we are now 
limited to our internal capacity. And so we did have a 
challenge with being able to surge outside of VA, and so we are 
limited to our in-house capacity. And so now we are sharing 
that overflow of capacity with the VBA contract. So we had to 
shift to a different way of scheduling.
    Mr. Bost. Okay. Thank you. Ms. Esty, you are recognized for 
five minutes.
    Ms. Esty. Thank you very much. Dr. Adirim, I wanted to 
ask--drill down a little bit more on the Guard and Reservists, 
because we are getting feedback about difficulty with records. 
So, for example, they are often in a rush to try to get their 
records updated. Now this is done much better with active duty. 
As soon as the Reservists come back, everybody, everybody 
disperses. Those records do not get updated, and that then 
poses huge problems.
    That is the kind of thing we get calls in our office all 
the time. I can't find my records, nobody updated them. I will 
tell you here is where I was, this happened, and there is no 
records available to us. As part of this process, I think we 
need to make sure that that is being dealt with. So I would 
like you to start, and anyone else who has--it is not directly 
on this, but this is literally we do not get the medical 
records updated, and that causes enormous problems down the 
line because you can't get accurate evaluation if the records 
are not present at the time that they are transitioning back.
    Dr. Adirim. All right. Well, thank you for bringing up this 
issue. It is a struggle because when you are in active duty the 
records are there, it is a central, you know, health record and 
so it is easy to access. With the Guard and Reserves, their 
care could be, you know, outside of the military system which 
makes it a struggle. And as a physician, I know this struggle 
in getting records for my patients.
    So I think this is something that we would like to take 
back, and we would like to look at, and determine what we can 
do to help our Guard and Reserve access their records quicker. 
Whatever that we need to do to help them with that. And we can 
get back to you on that.
    Ms. Esty. Thank you, because I think that is important as 
part of this process, and, again, as we are relying so much on 
Guard and Reserve. This is not occasional, these are our 
seasoned fighters at this point, and they deserve to have those 
records updated. And, again, I hope we can schedule to have a 
hearing in a few months' time so that we can put our heads 
together and find out what needs to happen to get this fixed. 
And--
    Dr. Adirim. I agree. And thank you for bringing up the 
issue.
    Ms. Esty. Thank you. We had discussed earlier some of the 
challenges, earlier in my office, some of the challenges we are 
looking at. Can you talk about what is being done with outreach 
for populations who do not seem to be connected, who we know, 
based on other surveys and other data, are more at risk for not 
getting employment? Suffering from PTSD, becoming homeless. 
What are you doing to use technology and to use every resource 
available to improve outreach at that transition point?
    Mr. Clark. I will start, and then Ms. Murphy, or Ms. 
Murray, and even Dr. Adirim may join. As we discussed, that is 
an opportunity for improvement. We have a TAP program that I am 
working with DoD. We are attempting to get that word out sooner 
and to more people. We have a division in VBA benefits services 
led by Margarita Devlin that is in charge of TAP, to get that 
information out.
    And as our MSCs and our other members of the regional 
offices go on and engage with the military members before they 
get out, we provide information on VA benefits. But we need to 
do a better job because one servicemember that does not get the 
word is one servicemember too many.
    So we have ways that we get out using TAP, but we have to 
do a better job, and then we have to reinforce it because a one 
and done won't get it. Often times you have members that they 
are at a point in their lives that they are transitioning, they 
are thinking about a lot of things, and even when they get the 
briefing, it may not be a point in time that they are ready to 
receive that.
    So we need to do a better job of going back and telling 
them again, and yet again, until they get that. And that is an 
opportunity for improvement that we need to do, and we have 
taken that and embraced that.
    Ms. Esty. Well, I hope you will come back to us maybe when 
we reconvene in a couple months' time with specific things. Are 
there resources you need to do that? I think ensuring that we 
get Internet, you know, appropriate email that is good for 
every single departing servicemember is one key thing. And then 
you can actually code them and do outreach, at least online 
outreach, at two months out, six months out when people might 
be more ready, more aware of the challenges they are facing, 
and we can target that a lot better.
    So I think we have to be using technology, we have to be 
capturing all pieces of information as we can when they are 
making that transition so it does not get lost, and they do not 
get lost. And that is, again, I know all of you are committed 
to that, but we have to do better, and I do think we need to 
use technology as well to capture who these folks are so that 
we have a way systematically when they move around the country 
to be able to reach back out and make sure they are connected.
    I am over time. Thank you, and I yield back.
    Mr. Bost. Thank you. Mr. Banks, you are recognized for five 
minutes.
    Mr. Banks. Thank you, Mr. Chairman. Mr. Avila, to Ms. 
Esty's point, the Ranking Member's point. As a Navy Reserve 
Officer myself, I have seen first-hand the difficulties that 
Reservists and Guardsmen sometimes have in comparison with 
their active duty counterparts. In your testimony, you 
mentioned the American Legion's concerns regarding the lack of 
resources for members of the National Guard and Reserves who 
are undergoing the IDES process in their home station.
    I know we have heard some others on the panel about their 
perspective, but could you elaborate on the American Legion's 
perspective on that point?
    Mr. Avila. As Chairman Bost mentioned going out to Walter 
Reed earlier, and I think if you go there you see the resources 
that are available in-house to everybody. You have JAG, social 
work, your medical appointments are there. There is a benefit 
to National Guard Reservists doing the medical process at their 
home station.
    They are home, they are with the family, they are not 
separated. But I think the fear there is that they do not have 
the resources that their active duty counterparts have. So it 
is a double-edged sword. Do we send them somewhere as a TDY to 
make sure they do their IDES process at a consolidated location 
where the resources are there. So I think that is the biggest 
gap that we see.
    I receive emails from Guard members or Reservists going 
through the IDES process at their home station, and they are 
telling me, I just got my proposed ratings and my 199 back from 
DoD, and I need to make some elections. And my JAG lawyer is, 
you know, at the state capital, or something like that. So they 
do not have somebody readily available to go there.
    And I think that is where we see the biggest difference. 
And then whenever you talk about available resources that are 
there on hand to assist the member make the crucial decisions, 
they are always going to be crucial as they separate, and what 
are the benefits they are going to receive.
    Mr. Banks. Thank you. Ms. Murphy, in place of Quick Start, 
the VA is allowing servicemembers who are within 90 days of 
discharge to begin preparing but not submit a fully developed 
claim, decision ready claim, or a traditional claim. If the 
servicemember has a character of discharge determination and 
has completed all requirements to develop their claim, why must 
this servicemember wait until after separation to file their 
claim with the VA?
    Ms. Murphy. We can begin working on this and we track these 
things, but until you are a veteran, we can't start paying you, 
until you are out of service. We do have some in-house tracking 
of end products and tracking those claims, but we are just 
working with you ahead of time.
    As far as the decision ready claim, your formal claim is 
what really starts our clock. So a servicemember works with a 
veteran service officer, collects records, goes gets the exam. 
And then when it is time, submits that to us. And as I said 
earlier, we have been turning those around in about eight days.
    And I do want to clarify that that new program is not just 
available to transitioning servicemembers that is available to 
any veteran who wants to work with a VSO. Right now we are 
limited to claims for increase, but we have recently expanded 
just this week to additional new issues on claims that we have 
already seen. So if you want to add an issue, a secondary 
issue, maybe your back is hurting because of your knee, also 
presumptive claims. So we have expanded about 500 percent the 
eligible pool there.
    But to your point, we are working with them ahead of time, 
it is just that we are not processing the claim and paying the 
benefits until they are on the discharged side.
    Mr. Banks. Okay. Thank you.
    Mr. Gallucci. Mr. Banks, I would like to comment on that, 
if I could, for just a couple of minutes because this is--
    Mr. Banks. No, I do not have a couple of minutes.
    Mr. Gallucci. Okay. Well--
    Mr. Banks. Let me move onto my next--
    Mr. Gallucci. About just--
    Mr. Banks. Excuse me. Mr. Avila, and Mr. Gallucci, to get 
to you on another point. Do you think that the fully developed 
claim program and decision ready claim program will meet the 
needs of separating servicemembers who are unable to file a BDD 
claim, to that point?
    Mr. Gallucci. I am glad you asked that, because that is 
what I was about to talk about.
    Mr. Banks. All right.
    Mr. Gallucci. So, no. Unequivocally, no. From the VFW's 
perspective, we have not had positive experiences with the 
decision ready claims process. I would say about 60/30 
negative--or 70/30 negative to positive experiences. What we 
are talking about here is that control over the exam, the 
official submission date. There is no product on the VA side. 
We are requesting exams, a veteran may conduct an exam--
    Mr. Banks. I have five seconds. Mr. Avila, do you agree 
with that?
    Mr. Avila. I think from part of my testimony, we have seen 
some positive experience. We are seeing the claims completed 
prior to the discharge date. Obviously, it is early on, and we 
got to keep an eye on it.
    Mr. Banks. Okay. Thanks. My time is expired.
    Mr. Bost. Ms. Brownley.
    Ms. Brownley. Thank you, Mr. Chairman. I have two quick 
questions. One to the VA. If you could speak to the issue that 
VFW raised with regards to letters that the servicemembers are 
receiving saying that veterans are disqualified from BDD. I 
think what is happening is they are receiving those letters and 
thinking, well, I am not eligible for any kind of benefit. But 
you are saying that they are not eligible right now but they 
will be later. But that is--the letter, they way it is written, 
is I think creates a lot of misunderstanding.
    Mr. Clark. Well, we will have to take that back, and 
certainly in working in concert with the VSOs to make sure that 
we are clear when we send that letter what that is about. So, 
obviously, we have to work closer with them to make sure that 
between the two of us, you know, we have got military service 
coordinators out there, we have got outreach specialists in the 
field that go out to military bases to let folks know that, 
hey, we have got these programs. The combined program just 
started on 1 October, so we have not gone the full 90 days.
    But as the testimony was shown by American Legion, we are 
finding that it is successful, and we need to do better. And, 
obviously, we need to get more information out there and let 
folks know. But we think it is a good program.
    Ms. Brownley. So does VFW, would you like to respond?
    Mr. Gallucci. Thank you, Ms. Brownley, absolutely. Based on 
the volume that we see, we anticipate significant challenges, 
especially in tracking how we serve that population who does 
not meet that 90-day deadline. I respectfully have to disagree 
with the Legion's perspective on this.
    The VFW processed more than 15,000 pre-discharge claims 
last year, and in reviewing our pending workload, it has gone 
down. I was out at the San Diego VA Regional Office, where we 
have a rating review team, just last week, and they have all 
but processed all of their Quick Start claims.
    Whether they are processed as DRC, FDC, or a traditional 
claim, we do not know that it is a transitioning servicemember 
anymore. To us that is problematic from a quality control 
standpoint to evaluate the efficacy of these programs as we 
have discussed in detail today.
    Ms. Brownley. Thank you. And, hopefully, we can follow up 
on this and improve upon that process. So the other question I 
wanted to ask is, you know, I want to commend everybody for 
improvement of timeliness. This is good, we seem to be moving 
in the right direction. I am sort of interested in the spirit 
of, I guess, transparency and really pealing the onion to have 
a good look at everything that is going on.
    What about, you know, are there cases where they are sort 
of outliers to the averages of the data? And so I would 
appreciate candidness with an answer. And, you know, if there 
is, you know, what are we doing to identify those issues and 
barriers, and how to improve upon the process for where there 
are, indeed, outliers?
    Mr. Clark. You know, with the IDES process, and I can let 
the Doctor speak to that. But overall, you know, we have said 
that there is an average processing time, well less than 100 
days for all claims in VA. Certainly IDES and BDD processes it 
shorter still, but that is an average. So we do have scenarios 
where it will take a little longer.
    Sometimes there are issues that are added later in the 
process, there are attempts if they are Guard and Reserve 
trying to get the records. But we have identified those and we 
continue to work and collaborate on ways to make sure that we 
get all of the records, and that we just be mindful that we 
have got the need from DoD to transition as quickly as possible 
while also trying to understand that we are dealing with 
members that are unsure about their future and where they are 
going, and we need to be compassionate in our approach and 
worry about them whether than our processes.
    Ms. Brownley. So you said two things. You said, all claims 
are under a hundred and some days. And then you said, but we 
are dealing with averages. So those are two very different 
things. An average is an average, and, you know, there are 
highs and lows, and all means all. So, anyway, Doctor, do you 
have any comments?
    Dr. Adirim. No, I would just add, thank you for that 
question. And, certainly, with any process there are going to 
be outliers, and those are cases that are more complicated. And 
we do monitor those cases, and we look into what the issues are 
to see where we can address those issues. But I would caution 
you that we want to make sure that every servicemember, you 
know, gets all due consideration. So if there are problems 
where we can expedite those cases, we do do that. But then 
there are cases where, you know, time is helpful to that 
servicemember. So thank you for brining that up.
    Ms. Brownley. Well, and I appreciate that answer. I, you 
know, in those more complicated cases I think, you know, the 
expectation is that we are hanging in there with the veteran, 
and communicating and standing by them shoulder to shoulder 
because, you know, both the veteran and their family, 
obviously, are going to be very, very concerned in those more 
complicated processes.
    Dr. Adirim. Right. Good point. Thank you.
    Ms. Brownley. Yes. Thank you. I yield back.
    Mr. Bost. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman. Dr. Adirim, what 
conditions does the Department of Defense require somebody who 
has an injury to be on a medical hold status subject to 
treatment? If somebody says that I have a physical injury, I 
have some type of stress related condition, is there ever a 
situation where that individual is put on medical hold, and 
that is subject to treatment, and that discharge is delayed?
    Dr. Adirim. I am not certain I quite understand the 
question. Do you mean that the servicemember is put on TDRL, 
or?
    Mr. Coffman. I do not know what TDRL is. A medical hold 
being that their discharge is suspended pending some sort of 
treatment, medical treatment.
    Dr. Adirim. I think what you are talking about is the TDRL. 
That when a servicemember has a condition under which they, you 
know, may have a condition where they will--where it is 
anticipated that they will eventually need to be put through 
the disability evaluation system. However, they will undergo 
treatment, and then a determination is made subsequently 
whether or not they can return to service versus being put 
through the disability evaluation system. That is what you are 
talking about, right?
    Mr. Coffman. Yes.
    Dr. Adirim. Okay. Good. And so your question is, what 
conditions?
    Mr. Coffman. Well, how often does that occur, and under 
what conditions?
    Dr. Adirim. We have--I believe we have--I can get back to 
you on that because I know the number but it is not coming to 
me right now, of servicemembers who are on that particular 
list. And the conditions would include any condition for which 
they are currently undergoing treatment which it is anticipated 
that they may improve but, you know, and they are reassessed at 
18 months. So I am not sure if I answered the question.
    Mr. Coffman. Well, if they are going through the disability 
process, and they are claiming something that the Department of 
Defense, the health system, could rehabilitate, you know, 
through surgery, through treatment, or through any process. 
What is the connection between our DoD health care system and 
that claims process relative to that issue?
    Dr. Adirim. Sure. Well, there are multiple different steps, 
and I just want to make sure I understand clearly what you are 
asking. If there is--a servicemember has a condition or an 
injury to which they need treatment, they would be put on a 
profile or limited duty, that would be the first step. If it is 
determined that it is likely that they will not be able to 
serve but they are still undergoing treatment, they would be 
put on the Temporary, TDRL--
    Mr. Gallucci. Temporary Disability.
    Dr. Adirim [continued]. --Disability, right. They may be 
put on that particular status, and they would undergo their 
treatment, and then at 18 months they would have another exam 
to determine whether or not they would need to be separated 
versus--undergo the disability system and separated versus 
going back to service.
    Mr. Coffman. Okay. So we have 20 veterans committing 
suicide on a daily basis in the United States. I would suspect 
a fair amount are going through the process, let's say it is 
post-traumatic stress--
    Dr. Adirim. Sure.
    Mr. Coffman [continued]. --or depression, or whatever. So 
my concern is what type of treatment are they then receiving 
before the discharge, and what connection do they have with the 
VA for an automatic hand-off to continue that treatment?
    Dr. Adirim. Thank you for that question. Now I understand 
what you are asking. Suicide and mental health conditions is a 
top priority of both DoD and the VA. We have a program in DoD 
called In Transition, which provides a warm hand-off for a 
servicemember to their care when they are out of the service.
    So a coach calls any servicemember that has had any mental 
health visits within that past year, or has been diagnosed with 
a mental health condition over that past year, and the 
servicemember's able to opt in. So all are called who have a 
mental health condition.
    And those that opt in get coaching and are provided with 
information about care that they may receive, and there is a 
warm hand-off, for example, to the VA. So we do have a program 
to do that for people who have mental health conditions.
    Mr. Coffman. Okay. And I think that in Congress--and I 
can't remember if it is this Committee or armed services--I 
think passed a provision in the last couple years that provided 
a physical for Guard and Reserve prior to their retirement. Am 
I correct in that?
    Dr. Adirim. I believe that is true, yes.
    Mr. Coffman. Okay. I yield back.
    Mr. Bost. All right. With that, I would like to recognize 
the Ranking Member for any closing remarks you might have.
    Ms. Esty. Thank you very much, I really appreciate your 
joining us here today. And there are a couple of issues that 
sort of came up in the course of our discussion today that I 
wanted to flag for you and have you think about.
    One is to facilitate transition, and this, frankly, has to 
do with other hearings we have had here. It seems to me that 
getting accurate email address is unbelievably important to 
stay in touch with our veterans, particularly in this 
transition time.
    They are much more likely to keep their email address and 
be findable that way than when we know from past experience, 
they are moving around, they are not sure where they are going 
to be living. That leads to a whole host of problems. We are 
not able to find them, we have had all those issues about 
service of process and receiving notice. It seems to me vital 
that we figure out a way to capture, as best we can, their 
email addresses.
    And I understand there has been some question about whether 
that can or should be asked as part of the DD-214. But I would 
like you to consider what we can do to ensure that we have our 
best possible, not only physical presence mail address which we 
ask for, but that is a legacy. The reality is right now a cell 
phone number and--that you could send text to, which we know 
to, in fact, be very effective.
    In a lot of the mental health issues, being able to text is 
actually vitally important. So I would ask you to consider the 
utility of having email addresses and cell phone numbers to 
facilitate interacting with and not, frankly, losing our 
veterans. So that is one, and where can we do that?
    And the other is, in my discussion with folks on my team, 
is to ask you, too, what kind of outreach is being done by the 
VA at that transition time to advise people of what state 
benefits might be available? Some of the states have very 
extensive programs, some do not. And it would seem to me, as 
part of our one-stop shopping, that we should be looking at 
that issue of what we can do.
    And there, again, having email addresses then allows us, as 
people are moving around, to say, say in a check-in, two months 
out, six months out, to say where are you currently living, 
and, if so, you should be aware, here are at least links to 
your state programs that you should explore. And we could, I 
think--again, using technology, we could do a much better job.
    So I would like, when we next convene, to look at both of 
those pieces as to how we do a better job. And it is just, 
frankly, leveraging the resources. States who have very good 
programs and are devoted, we should be utilizing and making 
those available to our veterans and not waiting for them to try 
to find them, or requiring our VSOs to try to find the veterans 
we have lost track of.
    So this is, again, in part of a spirit in doing a better 
job, connecting better with our veterans, faster, and better, 
and not losing one single one of them. So, again, thank you all 
very much. Thank you, Mr. Chairman.
    Mr. Bost. Thank you. And the only thing I would add is, 
obviously, from the conversation that we had today, you will be 
working with the VSOs on trying to--notification letter, try to 
correct that. So thank you. I want to thank all the witnesses 
for being here.
    And as I said at the beginning of the hearing, the complete 
written statements of today's witnesses will be entered into 
the hearing record.
    Hearing no objection, so ordered.
    I also ask unanimous consent that all Members have 5 
legislative days to revise and extend their remarks, and 
include extraneous material.
    Hearing no objection, so ordered.
    This hearing is now adjourned.

    [Whereupon, at 11:04 a.m., the Subcommittee was adjourned.]



 
                            A P P E N D I X

                              ----------                              

               Prepared Statement of Dr. Terry A. Adirim
REGARDING

THE INTEGRATED DISABILITY EVALUATION SYSTEM

Opening Remarks

    Chairman Bost, Ranking Member Esty, distinguished Members of the 
Subcommittee, thank you for the opportunity to appear before you today 
to discuss the Integrated Disability Evaluation System, also known as 
the IDES.
    The IDES is a joint Department of Defense (DoD) and Department of 
Veterans Affairs (VA) program that achieves two primary DoD objectives: 
(1) ensuring the readiness of our military forces, and (2) providing 
timely, quality disability evaluation of wounded, ill, or injured 
Service members so we can assess their fitness-for-duty and, if unfit, 
the appropriate disability disposition and compensation.

Improved IDES Performance

    The IDES is a success story that reflects the two Departments' 
shared commitment to collaboratively improve the evaluation of Service 
members transitioning to Veteran status due to disability. Since DoD's 
last appearance before this Subcommittee to discuss the IDES, the 
Department has continued to improve the efficiency and quality of the 
disability evaluation process.
    Since 2014, improved processing of nearly 22,000 physically unfit 
Service members per year has allowed the Military Departments to 
significantly reduce the amount of time Service members spend in a 
permanent non-deployable status and direct their resources towards 
accessing, training, and equipping ***physically ready forces.
    The IDES also provides improved case management and transparency 
for Service members undergoing evaluation due to disability. Within the 
IDES, there is a single point of contact for providing information to 
the Service member or their representative, as applicable, about the 
DES process. The IDES also provides a more transparent disability 
evaluation process by allowing Service members to receive their 
proposed VA disability ratings and compensation at the same time they 
receive their DoD physically unfit determination. This allows the 
member to make an informed decision about the best course of action, 
which is a great help to Service members who have their military career 
unexpectedly ended by a disabling condition.
    Today, Active Component (AC) IDES cases average 258 days from the 
date of referral to notification of VA disability benefits, well within 
the 295-day goal. This represents a 23 percent improvement since Fiscal 
Year (FY) 2014 and an overall 52 percent improvement over the 540 days 
Service members averaged to complete the Departments' separate 
disability processes prior to the worldwide implementation of the IDES. 
Similarly, Reserve Component (RC) IDES cases achieved a 22 percent 
timeliness improvement since FY 2014.
    DoD is responsible for four core IDES process steps: Referral, 
Medical Evaluation Board, Physical Evaluation Board, and Transition. We 
are outperforming the DoD core process stage goals required by DoD 
policy. For example, in October 2017, DoD Core Stage performance for AC 
disability evaluation was 104 days against a 105-day goal, while RC 
disability evaluation was 88 days against a 125-day goal.
    Although exceeding IDES performance goals, DoD is analyzing 
opportunities to reduce these goals to improve the readiness of our 
military forces and allow Service members to more quickly transition to 
veteran status.

Improved IDES Efficiency

    In 2014, DoD consolidated and revised its disability evaluation 
issuances to provide clear policy guidance on Military Department 
operation of their respective DES processes. To accomplish this goal, 
DoD combined thirteen previous disability evaluation issuances and 
directive-type memoranda. A revised DoD Instruction, supported by 
specific topics presented in three DoD Manuals, addresses each aspect 
of the disability evaluation system and set requirements for each 
Military Department's execution of disability evaluation activities. 
This effort was the first attempt to establish a DoD-wide group of 
consolidated disability evaluation policy and procedure issuances since 
the 1996 publication of a legacy DES directive and instruction. As a 
result, the Military Departments now operate with a much-improved, 
well-defined set of policy and process documents.
    As directed by Congress in the FY2013 National Defense 
Authorization Act, the Department implemented the DES Quality Assurance 
Program (QAP) in 2014. The DES QAP enables DoD to evaluate the accuracy 
and consistency of Military Department disability determinations, the 
degree to which Military Departments comply with DoD policy in their 
disability determinations, and the duty performance of Medical and 
Physical Evaluation Boards and Physical Evaluation Board Liaison 
Officers. DoD requires a minimum 80 percent score for quality assurance 
measures, and uses case reviews to help assess and monitor Military 
Departments' DES performance in those areas. DES QAP scores for FY 2017 
reflect an accuracy rate of 94 percent, a consistency rate of 77 
percent, and 80 percent for duty performance. Consistency scores fell 
under the 80% goal in FY 2017 due to a purposeful effort to increase 
the complexity of test case themes used to evaluate Military 
Departments' consistent application of DoD policy. DoD increased the 
number of conditions for each test case, as well as the complexity of 
conditions presented. This added rigor in DoD's evaluation methodology 
identifies deficient areas so that the Military Departments ensure 
equitable and consistent application of DoD policy.
    Training remains vital to the continued success of the IDES. DoD 
issued, in collaboration with the Military Departments, training 
standards and performance objectives (TSPOs) to ensure all IDES staff 
are prepared to provide Service members with the critical assistance on 
which they depend. Collectively, these efforts ensure that disability 
evaluation personnel are prepared to provide final adjudicative 
decisions accurately and in compliance with law and DoD policy.

Service Member Satisfaction

    DoD remains committed to continuously evaluating the IDES to 
enhance the experience of wounded, ill, and injured Service members as 
they undergo this process. Constant oversight is critical to identify 
needed IDES improvements, monitor implementation, and measure Military 
Department performance. As such, DoD surveys Service members at the end 
of both the Medical Evaluation Board and Physical Evaluation Board 
phases of the IDES process, assessing their satisfaction with DoD and 
VA personnel and their overall IDES experience. Survey results taken 
from over 9,000 Service members from April to September 2017 indicate 
93 percent of Service members were satisfied with their IDES 
experience. DoD will continue to utilize survey information and data to 
identify improvements.

Conclusion

    DoD is committed to the IDES process and identifying potential 
improvements to the program. Moving forward, we will maintain our close 
collaboration with the VA to meet our shared goals of providing quality 
and timely integrated disability evaluations of America's wounded, ill, 
and injured Service members.
    Mr. Chairman, Ranking Member Esty, and distinguished members of the 
subcommittee, I thank you for your unwavering support of the brave men 
and women that serve our nation, and your dedication to ensuring we 
have the most efficient systems in place to meet their evaluation and 
transition needs.

                                 <F-dash>
               Prepared Statement of Willie C. Clark, Sr.
    Good morning Chairman Bost, Ranking Member Esty, and Members of the 
Subcommittee. My name is Willie Clark, Deputy Under Secretary for Field 
Operations, in the Veterans Benefits Administration (VBA). I am joined 
by Beth Murphy, Director of VBA's Compensation Service, and Patricia 
Murray, Chief Officer, Office of Disability and Medical Assessment, 
Veterans Health Administration (VHA). I appreciate the opportunity to 
discuss several of VBA's pre-discharge programs for Servicemembers, 
including the Integrated Disability Evaluation System (IDES) and 
Benefits Delivery at Discharge (BDD). My testimony will also cover 
improvements to the IDES and BDD programs; Servicemember satisfaction 
with IDES; and training for employees involved in IDES and BDD claims.

Integrated Disability Evaluation System (IDES)

    On November 28, 2017, the Department of Veterans Affairs (VA) and 
the Department of Defense (DoD) will celebrate the 10th Anniversary of 
IDES. In 2007, VA and DoD created an integrated disability evaluation 
process for Servicemembers who are being medically retired or separated 
from service. This joint process was designed to eliminate the 
duplicative, time-consuming, and often confusing elements of the 
separate and consecutive disability processes within VA and DoD. In 
fiscal year (FY) 2017, more than 22,000 Servicemembers were enrolled in 
the IDES program.
    IDES provides a single set of disability examinations and a single-
source disability rating that are used by both departments in executing 
their respective responsibilities - eliminating the duplicate medical 
examination and rating determinations within DoD and within VA 
processes. The joint VA and DoD partnership through IDES has resulted 
in more consistent disability ratings, faster decisions, and more 
timely delivery of benefits for those personnel being medically retired 
or separated. Following discharge, VA can deliver disability 
compensation benefits in the shortest period allowed by law, thus 
reducing the ``benefit gap'' that previously existed under the legacy 
process. The integration of VBA's Military Service Coordinators (MSCs), 
disability examinations, and proposed disability ratings into the IDES 
process prior to separation ensures Servicemembers no longer have to 
navigate the VA disability compensation system on their own to apply 
for VA benefits.
    As a result of our collaborative efforts, VA and DoD have met the 
six goals established for IDES. These goals are (1) develop a single 
set of medical exams used by VA and DoD for disability rating; (2) 
eliminate the benefits delivery gap from separation to receipt of VA 
benefits; (3) increase transparency and consistency of the disability 
evaluations for Servicemembers; (4) reduce the combined processing 
time; (5) develop a less complex and non-adversarial process; and (6) 
provide a seamless transition of benefits and health care for 
separating Servicemembers through IDES.
    VA is responsible for four core IDES process steps: claim 
development, medical examination, proposed rating, and benefit 
notification. For the combined four core steps, VA's average processing 
time in September 2017 was 81 days, a 102-day improvement from the last 
time we testified on the IDES program in May 2014, and 19 days better 
than the VA target of 100 days. In addition, VBA awarded benefits 
within an average of 26 days of discharge, under our IDES timeliness 
goal of 30 days.
    DoD provides Servicemembers with IDES customer service satisfaction 
surveys when they separate. DoD publishes the results on a semi-annual 
basis, which includes VBA MSC customer satisfaction. At the end of June 
2017, customer satisfaction with the overall IDES program was 93 
percent and with MSCs was 89 percent.
    VA continues to collaborate with DoD on ways to improve IDES 
execution, while remaining focused on meeting timeliness standards. Our 
continued partnership with DoD is critical. VA and DoD are committed to 
supporting our Nation's wounded, ill, and injured Servicemembers 
through the IDES process.

Benefits Delivery at Discharge (BDD)

    Since 1995 when the BDD pilot started, the BDD and Quick Start 
programs have provided transitional assistance to separating or 
retiring Servicemembers and engaged Servicemembers in the claims 
process prior to discharge. VBA's goal is to ensure that each 
Servicemember separating from active duty and who wishes to file a 
claim with VA for service-connected disability benefits receives the 
upfront and timely assistance in doing so. Just as IDES provides 
Servicemembers, who are facing medical discharge, with the opportunity 
to initiate a claim for disability compensation benefits, the program 
has also provided this opportunity to Servicemembers who are 
transitioning via traditional or ``non-medical'' separation.
    In FY 2017, VBA significantly improved BDD production and 
timeliness, completing over 32,000 claims in an average of 90 days, 
compared to approximately 29,000 claims in 127 days in FY 2016. VBA 
also completed over 25,000 Quick Start claims in an average of 109 days 
in FY 2017.
    VA is dedicated to ensuring that Veterans get the benefits they 
have earned and deserve as quickly and accurately as possible. As a 
result, VA has redesigned its pre-discharge program to enable 
Servicemembers to receive disability benefit decisions, in most cases, 
the day after their discharge. The redesigned program went into effect 
October 1, 2017. Since then, pre-discharge claims are distributed 
through the National Work Queue to all VBA regional offices. Prior to 
this change the claims were distributed only to the rating activity 
sites that were processing these types of claims. The new modifications 
to the existing BDD program include changing the filing deadline to 90 
days, rather than 60 days, in order to enable VBA to schedule and 
complete all of the medical examinations that are necessary to prepare 
the disability compensation claim decision prior to the Servicemember's 
discharge from military service. As part of the redesign, VBA 
discontinued the Quick Start program and instead will fill the gap by 
utilizing the new Decision Ready Claim program in addition to the Fully 
Developed Claim or traditional claim processes as appropriate after 
separation. We continue to work in concert with our Veterans Service 
Organization (VSO) partners on the pre-discharge program. VSOs 
regularly collaborate with our MSCs on various military bases, in order 
to facilitate Servicemembers' initial claims submission.

Training

    VBA provides substantial training for all employees involved in the 
processing of claims, including pre-discharge claims. VBA's Challenge 
Training program provides the basic technical skills to process claims 
in a blended learning format that includes both classroom and practical 
application. Ongoing technical training is also required each year.
    In September 2017, BDD redesign training was provided to MSCs, and 
VBA plans to conduct a comprehensive MSC training event in FY 2018. In 
October 2017, VBA conducted focused training on the new redesigned BDD 
program for claims processors.

Conclusion

    VA remains committed to supporting our Nation's Servicemembers 
through improvements in pre-discharge programs. VA believes its 
continued enhancements are critical to program success in delivering 
the benefits and services our Servicemembers and future Veterans 
deserve.
    Mr. Chairman, this concludes my statement. We would be pleased to 
respond to questions you or other Members may have.

                                 <F-dash>
                  Prepared Statement of Gerardo Avila
ON

``THE INTEGRATED DISABILITY EVALUATION SYSTEM (IDES) AND VA'S PRE-
    DISCHARGE PROGRAMS FOR SEPARATING SERVICEMEMBERS''

December 13, 2017
    Chairman Bost, Ranking Member Esty and distinguished members of the 
Subcommittee on Disability Assistance and Memorial Affairs (DAMA); on 
behalf of the 2 million members of The American Legion and National 
Commander Denise H. Rohan; The American Legion, the largest patriotic 
service organization for veterans serving every man and woman who has 
worn the uniform for this country, thank you for the opportunity to 
testify regarding The American Legion's position on the ``Integrated 
Disability Evaluation System and VA's pre-discharge programs for 
separating servicemembers''.
    The goal of the Integrated Disability Evaluation System (IDES) 
since its inception in 2007 has been to streamline the medical 
separation process and create a seamless transition for wounded, ill, 
and injured servicemembers from the Department of Defense (DoD) to the 
Department of Veterans Affairs (VA). This seamless process would create 
a one-stop shop and encourage better coordination between DoD and VA. 
Key components would include reducing the overall time it takes a 
servicemember to complete the IDES process, a medical evaluation for 
receipt of VA benefits, utilizing a single examination process that 
meets the needs of both VA and DoD, and increasing transparency of both 
the DoD disability evaluation system and the VA claims process.
    Prior to the IDES program, the transfer of wounded, ill and injured 
servicemembers from DoD to VA was fragmented. This led to large gaps in 
medical care and VA disability compensation. These large gaps in 
coverage placed further stress on those servicemembers most at risk and 
at the crucial point of transitioning out of active duty service. It 
also hindered their ability to plan for their financial future due to 
their VA claims not being adjudicated for months and in some cases, 
years after their separation. In many instances it seemed that DoD and 
VA were using different sets of criteria to rate disabilities, all too 
often unfit conditions received a different set of ratings from DoD 
compared to VA. Servicemembers were confused by this new system, and 
many were unaware of their rights and how the process worked.
    As a response to fill the void, The American Legion works to assist 
servicemembers across the United States. Until recently, The American 
Legion assisted with the Medical Evaluation & Physical Evaluation Board 
(MEB/PEB) process at the Servicemember & Family Assistance Center 
(SFAC) at Joint Base Lewis-McChord, WA. Additionally, the National 
staff offices in Washington D.C. supports surrounding region by 
assisting transitioning servicemembers at the Warrior Transition Units 
located at Walter Reed National Military Medical Center (WRNMMC), and 
Fort Belvoir, VA. The American Legion helps in reviewing the findings 
of the board, writing rebuttals, and answering questions on the IDES 
process. Also, The American Legion maintains service officer staff at 
the VA's Benefits Delivery at Discharge (BDD) sites in Winston-Salem, 
NC and Salt Lake City, UT and have assisted veterans with over 500 BDD 
and Quick Start (QS) claims quarterly. The service officers also review 
exam results, as well as represent servicemembers in hearings when 
warranted.
    The American Legion continues to focus on the many challenges 
facing today's transitioning servicemembers. The IDES program, while 
not perfect, has been helpful in reducing the number of days it takes 
to complete the medical board process, which has drastically reduced 
the gap from separation date to receipt of benefits. The American 
Legion supports the idea of having one compensation & pension (C&P) 
exam and rating decision with the results being accepted by both VA and 
DoD.
    While the above improvements have been made, The American Legion 
still has the following concerns:
    DoD Rating individuals placed on the Temporary Disability 
Retirement List (TDRL):
    Servicemembers found unfit to continue service for a condition that 
is not stable enough to assign a permanent rating will end up on TDRL. 
If the individual is retired and is transitioned out of service, they 
will be required to undergo periodic examinations by DoD to see if the 
condition has improved, worsened, or become stable enough to assign a 
permanent rating. The agreement and spirit of IDES is that DoD would 
stay out of the rating business and leave the decision to VA. The 
American Legion believes that DoD is violating the principles of IDES 
and should not be conducting ratings. The American Legion suggests that 
DoD communicate with VA and inquire if the individuals ratings have 
changed. By doing so, the one rating decision will be maintained. 
Additionally, the ability to add new conditions once a servicemember is 
enrolled in IDES can cause issues. Medical appointments and treatment 
do not stop once an individual is enrolled in IDES and the probability 
of receiving a new diagnosis is likely. The American Legion has 
represented individuals who were unable to add new conditions and told 
to file a claim with VA once they were separated. While the advice is 
true, the goal of IDES was to correctly rate an individual by both DoD 
and VA concurrently and prior to seperation. By allowing new conditions 
to be added, the servicemember will have a complete picture of their 
financial outlook and can concentrate on transitioning and not have to 
think about another VA claim.
    A lack of available resources by members of the National Guard and 
Reserves undergoing the IDES process at their home station:
    In the past, The American Legion has expressed concern about Line 
of Duty (LOD) investigations, lack of resources, and the accurate 
dissemination of information on the IDES process for this group of 
servicemembers. Unlike their active duty counterparts, LOD 
investigations are crucial to proving that the disability was incurred 
due to their service, without it, they will be separated with no 
retirement or severance. Attempting to undergo this endeavor at home is 
much more difficult compared to their active duty counterparts who are 
located at a military instillation where medical, legal services, and 
transition assistance are co-located. If feasible, members of the 
Reserves and National Guard should be recommended for assignment to a 
Warrior Transition Unit while enrolled in IDES.
    The American Legion would also like to see improvements in other 
areas as well, specifically, the pre-discharge program previously 
referred to as Benefits Delivery at Discharge (BDD) and Quick Start 
(QS) program. Under BDD, transitioning servicemembers could file their 
VA disability claim between 60-180 days from their separation dates and 
those under 60 days could file under the QS program. The goal of the 
program was to initiate the claim while the servicemember was still on 
active duty, with the goal of shortening the gap from separation to the 
benefits receipt date. BDD intended to have the claims completed within 
60 days of discharge. According to our two BDD field service officers, 
this goal was never reached. Almost all BDD claims were taking an 
average of 6-12 months after discharge to be completed, with QS claims 
taking even longer earning the nickname ``quick start, slow finish.''
    These statements are supported by the last audit conducted by the 
VA Office of the Inspector General (VAOIG) which conducted a review of 
the Quick Start program. VAOIG found delays remained and accuracy 
figures well below VA target numbers. While VA was able to reduce the 
Average Days to Complete a Claim (ADTC) from 291 days in 2011 to 249 
days in 2013 the accuracy of those claims remains below 70 percent. \1\ 
The OIG found the lengthy ADTC rates were due to insufficient program 
controls in VA and recommended recurring program evaluations and 
increased training on processing QS claims.
---------------------------------------------------------------------------
    \1\ VAOIG Report 12-00177-138 ``Audit of VA's Quick Start Program'' 
May 20, 2014
---------------------------------------------------------------------------
    In 2017, the Veterans Benefits Administration (VBA) introduced new 
changes to the BDD program with the launch of the pre-discharge 
redesign. The major changes include doing away with the QS program and 
combining it with BDD. Timelines have also changed. Now servicemembers 
must file their claim between 90-180 days of their separation. VA will 
hold claims filed under the 90 day window and begin to work as a 
traditional or fully developed claims once the separation date is 
reached. The Salt Lake City Regional Office was selected as the pilot 
site for the program, and our representative has indicated that the 
recent changes have been positive thus far. They base their opinions on 
seeing more pre-discharge claims completed prior to discharge, 
previously BDD claims were rated after discharge. For example, a claim 
was completed on October 31st for someone with a discharge date of 
November 30th and another completed on October 17th with a discharge 
date of October 31st. Our representatives stated that this was not the 
case under the previous program and mentioned that the new program is 
good for veterans because they will receive their compensation right 
after discharge.
    The elimination of the QS program creates a serious concern for The 
American Legion in cases where VA is quicker to grant service-
connection for conditions that are diagnosed while still in service, as 
opposed to being diagnosed even one day after. Servicemembers are at a 
greater risk of being delayed service-connection for medical conditions 
unless it's a condition subject to presumptive service-connection under 
Code of Federal Regulations (CFR) paragraph 3.309.
    If this is the case, a veteran will have to gather supporting 
documentation to establish the nexus between the disability and their 
time in service to be granted service-connection for the condition. 
This could result in additional obstacles the veteran must overcome to 
receive their benefits. Another concern is the inability to add new 
conditions once under the 90-day window. New conditions claimed will 
not be accepted and written notification will be sent reminding the 
servicemember the need to file a new claim after separating.
    The American Legion has lent its voice and taken direct actions to 
ensure today's transitioning servicemembers are fully supported and 
have all the information available to make sound decisions. We also 
support a more robust presence of veteran service organizations and 
other private stakeholders on the DoD side to ensure transitioning 
veterans have the support required. The American Legion has asked for 
better dissemination of information by both DoD and VA, as well as 
requesting to make the IDES system robust enough to assist veterans 
with Vocational Rehabilitation and Employment \2\programs \3\. Better 
support is needed for National Guard and Reserve members to ensure they 
do not fall behind their active duty counterparts.
---------------------------------------------------------------------------
    \2\ Resolution No. 42: ``Compensation Benefits Information 
Disseminated at all Transition and Access Points''
    \3\ Resolution No. 32: ``Enhancements to Integrated Disability 
Evaluation System Process''
---------------------------------------------------------------------------
    All of these challenges can be improved with better integration of 
stakeholders at all levels of the process. We cannot allow this severe 
disparity in access of medical support between the military and veteran 
communities. These men and women who deserve these earned services must 
not continue to struggle unnecessarily.
    As always, The American Legion thanks this subcommittee for the 
opportunity to elucidate the position of the 2 million veteran members 
of this organization. For additional information regarding this 
testimony, please contact Mr. Derek Fronabarger, Deputy Director of The 
American Legion's Legislative Division at (202) 861-2700 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8febe9fde0e1eeedeefde8eafdcfe3eae8e6e0e1a1e0fde8a1">[email&#160;protected]</a>
                                 <F-dash>
                 Prepared Statement of Ryan M. Gallucci
WITH RESPECT TO

``To Discuss the Integrated Disability Evaluation System (IDES) and 
    VA's Pre-Discharge Programs for Separating Service Members''

    Chairman Bost, Ranking Member Esty and members of the Subcommittee, 
on behalf of the men and women of the Veterans of Foreign Wars of the 
United States (VFW) and its Auxiliary, I would like to thank you for 
the opportunity to testify on the Integrated Disability Evaluation 
System (IDES) and the Department of Veterans Affairs' (VA) pre-
discharge programs for separating servicemembers.
    As the nation's oldest major veterans service organizations (VSO), 
the VFW serves 24 military installations to help veterans navigate and 
understand their earned VA benefits. Given the structure of the IDES 
program, we only have minimal interaction with servicemembers as they 
navigate this process. Therefore, most of this testimony will focus on 
VA's pre-discharge claims programs.
    To the VFW, filing claims prior to separation from the military is 
one of the most important processes that a servicemember can complete 
during the transition process. Not only does this ensure timely 
delivery of benefits after discharge, but it also increases the 
likelihood of granting benefits, setting veterans up for future 
success.
    The reason that the VFW has invested significant resources to 
support transitioning servicemembers is to foster a lifetime of 
advocacy on their behalf. As you know, the VFW and organizations like 
us provide this service free of charge. This is not just a courtesy 
that we provide. This highly-regulated professional service is a 
cornerstone of the VFW's mission to advocate for our nation's veterans.
    When we say a lifetime of advocacy, we mean that the advocacy we 
provide does not stop after the initial appointment with a 
transitioning servicemember to file an initial VA claim. Instead, from 
that point forward, we hold limited power of attorney to advocate on 
behalf of the veteran and his or her dependents in any claim actions 
before VA. What this means is that after service, if a condition 
worsens, if the veteran marries or has children, the VFW's global 
network of more than 1,900 highly-trained, professional, and VA-
accredited advocates is there to help navigate the process. Even when 
the veteran passes away, VFW advocates are there to support the 
surviving family members in understanding and accessing any benefits to 
which they are entitled.
    According to VA, this lifetime of advocacy yielded nearly $7.7 
billion in earned benefits for nearly 500,000 VFW-represented claimants 
in fiscal year (FY) 2017--an increase of more than $200 million over FY 
2016. The VFW believes in this lifetime of advocacy, and the most 
critical point in establishing this relationship is the time when a 
servicemember chooses to leave the military. For this, I want to thank 
both VA and the Department of Defense (DoD), whom we heard from today, 
for allowing the VFW to play a critical role in this transition.
    I just had the opportunity to visit with our work sites on Camp 
Pendleton, Naval Base San Diego, and in the San Diego VA Regional 
Benefits Office, so I have seen firsthand the importance of 
collaboration among DoD, VA, and the VSOs to best serve our 
transitioning servicemembers.
    A positive experience for a transitioning servicemember in 
navigating their VA benefits sets everyone up for success. The veteran 
receives timely, accurate benefits, setting them on a course to 
financial stability during a difficult transition. VA can more easily 
process benefits for veterans whose health conditions clearly manifest 
during their time on active duty, making VA an approachable and non-
adversarial steward of these critical benefits. DoD fosters a smooth 
transition into civilian life, solidifying its rapport with veterans 
and ensuring the sustainment of the all-volunteer force. Finally, it 
postures the VFW to provide the best possible service to our clients no 
matter where they choose to go after they leave the military.
    As transition programs evolve, Congress, DoD, and VA all seek to 
make changes to better suit the transition experience. Many times, 
these changes result in improved service for the transitioning 
servicemember, such as the Transition Assistance Program (TAP) mandate 
included in the VOW to Hire Heroes Act; DoD's deployment of the 
military lifecycle model for transition; VA's establishment of the pre-
discharge claims program; or the joint DoD/VA commitment to develop a 
single medical record for servicemembers and veterans.
    Unfortunately, sometimes changes have unintended consequences that 
may result in a degraded transition experience for the servicemember. 
This is where the VFW takes its responsibility as a veterans' advocate 
to inform the agencies of jurisdiction and this committee of our 
concerns.
    Recently, VA made two significant changes to its pre-discharge 
claims programs that make the VFW concerned about the future of this 
critical interaction and the professional services we provide to our 
transitioning military members. First, VA shifted its timelines for the 
Benefits Delivery at Discharge (BDD) program, only allowing 
servicemembers to submit BDD claims from 180 - 90 days prior to 
discharge. Second, VA eliminated the Quick Start (QS) claims program 
entirely, meaning veterans with 89 days or fewer left on active duty no 
longer have an option tailored to their unique circumstances to easily 
access their earned benefits.
    The VFW understands why VA wanted to shift the timeline for BDD to 
90 days. We understand that this allows VA to complete exams and 
propose rating decisions to deliver benefits as close to a 
servicemember's date of discharge as possible. In a vacuum, this is a 
positive step. However, coupled with the elimination of QS and the 
military's cumbersome transition timelines, the VFW believes this 
change would disqualify most servicemembers the VFW serves from easily 
accessing their benefits on their way out of the military.
    According to VA, the VFW's claimants on military installations who 
filed QS claims fluctuated between 33 and 50 percent over the past 
year. In visiting with our pre-discharge claims sites, we hear that 
most clients visit our offices with far fewer than 90 days left on 
active duty, meaning most of our past BDD clients would no longer be 
qualified for the program. Yes, VA still accepts these claims, but they 
are no longer processed expediently while the veteran still serves on 
active duty, and they are no longer tracked with a unique end product 
(EP) code specific to QS claims, formerly EP code 337.
    In the past, this EP code allowed the VFW to track pre-discharge 
claims work to perform rating reviews and ensure the best possible 
outcome for our transitioning servicemembers. Now, with the elimination 
of the QS EP code, claims we submit on behalf of transitioning 
servicemembers are assigned as any other claim in VA's National Work 
Queue. VA will argue that this is not a big deal and that VFW-
accredited representatives anywhere can conduct these rating reviews. 
While this is technically true, we lose optics on these claims and can 
no longer properly track and report how well VA is serving the 
transitioning servicemember population. If we cannot identify problems 
this early in the process, we are not setting up the servicemember for 
post-military success.
    This is why the VFW commits substantial resources at the national 
level to not only initial claims intake but also quality controls on 
adjudication of the original claim. As of this hearing, the VFW has six 
personnel stationed at the VA regional offices (VARO) responsible for 
pre-discharge claims adjudication whose sole responsibility is to 
review rating decisions and correct any possible errors. Our most 
recent data indicates that our rating review specialists catch VA 
adjudication errors in up to 20 percent of pre-discharge claims and are 
able to resolve such errors prior to promulgation of the award. This 
quality control allows us to establish the aforementioned lifetime of 
advocacy that we consider so vital to a veteran's future, posturing our 
local advocates for success once a recently-transitioned veteran 
settles down.
    Several years ago, recognizing the unique needs of transitioning 
servicemembers, VA committed not to broker work from the consolidated 
pre-discharge claims worksites at the VAROs in Winston-Salem, Salt Lake 
City, and San Diego. VA reneged on this promise last year with its 
across-the-board implementation of the National Work Queue, as we have 
testified in the past, and we do not expect VA will go back to its old 
workflows, since this has seemed to increase productivity and 
efficiency for VA. However, through unique EP codes and Station of 
Origination filtering in Veterans Benefits Management System (VBMS), 
our pre-discharge quality control team was able to track and review 
work regardless of the VARO of jurisdiction for adjudication. This was 
a satisfactory middle ground to meet both the needs of VA to broker its 
work and the VFW's need to maintain optics on specific claims for 
quality control purposes. However, with the elimination of the QS EP 
code, we lose optics on this work and can no longer fulfill our 
commitment to transitioning servicemembers to perform the proper 
quality controls on their claims.
    We have not seen the full effects of this yet, but our rating 
review specialist at the San Diego VA Regional Benefits Office already 
reports that QS claims for review are declining, and in meeting with 
the VARO Director, we learned that the total pending QS workload is all 
but adjudicated. So what happens now?
    This becomes especially problematic for servicemembers who are 
lower in rank--the servicemembers who need our services the most. 
Through surveying the VFW's clients, we have learned that many of our 
junior enlisted clients do not receive their TAP training in time to 
file a BDD claim. We also know that the military branches are just 
narrowly able to satisfy the VOW to Hire Heroes Act requirement for 
servicemembers to start their transition training with no fewer than 90 
days remaining on active duty. If servicemembers have not been briefed 
yet on how to access their earned benefits, how can VA expect them to 
file their claim actions?
    This is especially problematic on installations, like Camp 
Pendleton, that serve large numbers of junior enlisted transitioning 
servicemembers. On my recent site visit, I saw that most of the clients 
visiting our representative are much closer to their discharge date 
than 90 days. Based on our internal numbers, most of our clients on 
Camp Pendleton were QS claimants prior to October 1.
    Moreover, VA exacerbated an already tenuous situation by notifying 
transitioning servicemembers with fewer than 90 days on active duty 
that they were ``disqualified'' from filing BDD claims. This is a 
situation where language is critical. When the VFW was first presented 
with this letter, we vehemently disagreed with VA's decision to send it 
as worded. This concern was ignored. Since the change went into effect 
October 1, we have heard from all of our pre-discharge claims sites and 
several of our VARO worksites that veterans have called or visited the 
office, concerned that something went wrong with their claim. We even 
have one report from our office at Walter Reed National Military 
Medical Center that a retiree received a BDD disqualification letter 92 
days prior to separation.
    Thankfully, many of these clients have confidence in our 
representatives to explain the situation or resolve any discrepancies. 
However, what concerns us are the servicemembers that we do not hear 
from who thinks that the VFW did something wrong. For these veterans, 
we have lost our ability to advocate, and they already have a negative 
perception of how both VFW and VA will handle their benefits.
    The VFW calls on VA to put veterans, not appearances, first. It 
must accept claims prior to separation instead of punishing 
transitioning servicemembers whose chain of command does not permit 
them the opportunity to begin their transition process 90 days before 
they separate from military service. At the very least, VA must 
reestablish an EP code for transitioning servicemembers who file a 
claim within 90 days of separation to ensure the VFW and other veterans 
organizations are able to assist veterans in successfully transitioning 
from military service back to civilian life, regardless of where they 
choose to call home.
    VA must also rework the disqualification letters to simply notify 
the veterans that their claims have been received, but it cannot be 
worked until they separate from service and submit their DD-214 
paperwork. It is unconscionable that transitioning servicemembers be 
led to believe they are not eligible for VA benefits simply because VA 
refuses to change the wording on its letters. These simple steps will 
once again ensure that the VFW and similarly-structured organizations 
can continue to provide the advocacy our clients expect, and 
transitioning servicemembers will once again have peace of mind that VA 
is responsibly handling their pending benefits claims.
    Unfortunately, the VFW worries there is a larger objective with the 
recent changes to VA's pre-discharge claims programs. While VA asserts 
that moving the window to 90 days results in better claims service, the 
elimination of the QS EP code and the rapid deployment of programs like 
the Decision-Ready Claims (DRC) process indicate to the VFW that VA's 
primary objective is to obfuscate the total pending workload.
    Based on the VFW's estimates, we would lose optics on up to 50 
percent of our pre-discharge workload simply by VA shuffling the BDD 
timelines and eliminating the QS EP code. The problem is not only that 
we lose optics on the claims, but VA will not formally establish the 
BDD-excluded claims until veterans formally submits their DD-214 after 
they separate from service. This means that any time from 89 days to 
the time of the veteran's submission does not count as pending work as 
it formerly counted when the claim was established under a QS EP code.
    On December 11, 2017, VA deployed new functionality in DRC, 
encouraging VSOs to work DRC claims for transitioning servicemembers. 
While it may seem advantageous for VSOs to be able to request VA exams 
for separating servicemembers who are not BDD eligible, the process 
completely falls apart with the requirement for the separating 
servicemembers to formally submit the claim once they leave military 
service. Per VA guidance, if we were to work with a separating 
servicemember to prepare a DRC claim, the VSO would never actually 
submit the claim. Instead, the servicemember would be responsible for 
not only formally submitting their DD-214 after they leave active duty, 
but for also completing and submitting the formal paperwork to 
establish their claim. This is a non-starter for the VFW and our 
clients because we lose all control of our client's claim. Veterans 
come to us so that they do not have to worry about these processes and 
wonder whether or not they are doing something right. Moreover, after 
our pre-discharge claims representatives work with a separating 
servicemember who leaves the military, we have lost the ability to help 
them without their proactive effort. Our preferred method of doing 
business is to take care of all the required claims processes while the 
servicemember is still on active duty--especially establishing a claim. 
To the VFW, the only benefit to shifting the onus to file onto the 
veteran is that, once again, there is no formal work product pending 
with VA, implying that claims processing times have improved. To the 
VFW, we cannot compromise quality customer service so that VA can 
report more favorable adjudication numbers.
    Please do not read this as VFW accusing VA of having nefarious 
motives in clearing its pending workload. After all, the VA pending 
workload has been the subject of heavy scrutiny from VSOs, the public, 
and this committee for years. But maybe it is time to have an honest 
discussion about this. VA is notorious for unnecessarily drawing out 
certain business processes, but not all pending work is because of VA 
inaction, such as development for QS claims, and not all pending work 
is bad for the veteran, such as the 48-hour review period. As veterans' 
advocates, it is our job to properly explain these nuances in the VA 
claims process to veterans before the barracks lawyers get a hold of 
them and tells them VA is out to get them. We can help do this. In 
fact, I did it just this week on a site visit to our pre-discharge 
claims site in San Diego. During a Transition Goals, Plans, Success 
(TGPS) Capstone briefing, I had the opportunity to speak with a sailor 
who was going through the IDES process at Naval Base San Diego. He had 
been notified of his VA rating, but still has a few weeks left on 
active duty. His question was simple: When do my benefits start? After 
a brief explanation of the next steps, he understood why he would not 
receive his VA benefits while on active duty, and he understood the 
timelines he would experience once he received his discharge paperwork. 
After the conversation, he seemed more confident and understanding of 
what was happening. To this sailor, the timelines did not matter nearly 
as much as the clarity. If we all set reasonable expectations, and 
explain the processes behind the timelines, veterans will have a 
positive experience. This is what we do as advocates.
    Unfortunately, confusion and constant changes only perpetuate 
negative perceptions of VA and the programs VA administers. I say this 
in our regular meetings with VA: Help us help you. After all, we are 
the veterans' community. Many of us have been through this transition. 
We understand what our clients are going through. Our personal 
experiences, coupled with the training VA requires of us to understand 
this highly-regulated process means that we can explain things in a 
context that separating servicemembers will understand. We can carry 
the water if the focus is veteran-centric.
    To the VFW, the time when servicemembers transition off of active 
duty is one of the most significant changes they will experience in 
their lives. This Congress and the VSO community have dedicated 
substantial resources to make sure that we get this right. The VFW 
values the role that we are allowed to play in the process through both 
VA and DoD, and we are always looking for ways to improve. Our goal is 
that we can move forward together to ensure that our transitioning 
servicemembers have access to the programs, information, and services 
they need for a successful transition out of military life.
    Mr. Chairman, this concludes my testimony. I will be happy to 
answer any questions you or the Committee members may have.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
